INDEX TO A PPENDIX
Page No.
A.

Order;
United States Court of Appeals for the Ninth Circuit .............0001
Filed August 7, 2020

B.

Order Denying First Amended Petition for Writ of Habeas
Corpus;
United States District Court, District of Nevada .....................0002
Filed May 6, 2020

C.

First Amended Petition for Writ of Habeas Corpus;
United States District Court, District of Nevada .....................0015
Filed February 6, 2017

D.

Order of Affirmance;
Court of Appeals of the State of Nevada ...................................0031
Filed April 14, 2015

E.

Judgment of Conviction;
Second Judicial District Court ..................................................0034
Filed November 9, 2007

App. 0001
Case: 20-16050, 08/07/2020, ID: 11781148, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 7 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

EDWARD G. RODRIGUEZ,
Petitioner-Appellant,
v.
TIMOTHY FILSON; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

No.

20-16050

D.C. No. 3:15-cv-00339-MMD
District of Nevada,
Reno
ORDER

Respondents-Appellees.
Before:

McKEOWN and BADE, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

App. 0002
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 1 of 13

1
2
3

UNITED STATES DISTRICT COURT

4

DISTRICT OF NEVADA

5

***

6

EDWARD G. RODRIGUEZ,

7

Petitioner,

ORDER

v.

8
9

Case No. 3:15-cv-00339-MMD-WGC

TIMOTHY FILSON, et al.,

10

Respondents.

11
12

I.

SUMMARY

13

Petitioner Edward G. Rodriguez filed a petition for writ of habeas corpus under 28

14

U.S.C. § 2254. This matter is before the Court for adjudication of the merits of the

15

remaining grounds in the counseled amended petition (“Amended Petition”). For the

16

reasons discussed below, the Court denies the Amended Petition, denies a certificate of

17

appealability, and directs the Clerk of the Court to enter judgment accordingly.

18

II.

BACKGROUND

19

Rodriguez’s conviction is the result of events that occurred in Washoe County,

20

Nevada on or about December 10, 2006. (ECF No. 24-9.) Rodriguez was charged with

21

the murder of Pamela Sue Carter by means of strangulation and/or suffocation. (Id.)

22

Rodriguez pleaded not guilty to the charge. (ECF No. 24-10 at 4-5.) During the third day

23

of trial, Rodriguez indicated that it was “in his best interest to enter some type of plea.”

24

(ECF No. 25-2 at 67.) Rodriguez pleaded guilty to first-degree murder in return for the

25

State dropping the weapon enhancement. (Id. at 67, 75.) During the state district court’s

26

plea canvass, Rodriguez explained that Carter owed him money and that he bound and

27

gagged her as a threat to get her to repay him. (Id. at 74-75.) Carter was still alive when

28

Rodriguez left her residence, and Rodriguez believed that Carter’s husband would

App. 0003
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 2 of 13

1

simply find her and remove her gag in the morning. (Id. at 75.) Rodriguez was sentenced

2

to life without the possibility of parole. (ECF No. 25-3 at 2.) Rodriguez did not appeal his

3

judgment of conviction.

4

Rodriguez filed a state habeas petition on April 28, 2008. (ECF No. 25-7.) The

5

state district court held an evidentiary hearing on January 21, 2014. (ECF No. 25-17.)

6

Thereafter, on January 30, 2014, the state district court entered an order denying

7

Rodriguez’s petition. (ECF No. 25-18.) The Nevada Court of Appeals affirmed on April

8

14, 2015. (ECF No. 26-5.) Remittitur issued on May 11, 2015. (ECF No. 26-6.)

9

Rodriguez filed a pro se federal habeas petition and a counseled first amended

10

petition on June 26, 2015 and February 6, 2017, respectively. (ECF Nos. 1-1, 23.)

11

Respondents moved to dismiss the Amended Petition. (ECF No. 27.) This Court granted

12

the motion is part. (ECF No. 33.) Specifically, this Court concluded that Grounds 1(a)

13

and 3 were unexhausted. (Id. at 11.) Thereafter, Rodriguez moved to dismiss Grounds

14

1(a) and 3. (ECF No. 37.) This Court granted the motion. (ECF No. 38.) Respondents

15

answered the remaining grounds in Rodriguez’s Amended Petition on August 27, 2018.

16

(ECF No. 43.) Rodriguez replied on November 27, 2018. (ECF No. 46.)

17

In his remaining grounds for relief, Rodriguez asserts the following violations of his

18

federal constitutional rights: (Ground 1(b)) his trial counsel failed to inform him that he

19

had the right to a direct appeal; and (Ground 2) his trial counsel failed to investigate and

20

present mitigating evidence on his behalf at sentencing. (ECF No. 23 at 10-13.)

21

III.

LEGAL STANDARD

22

28 U.S.C. § 2254(d) sets forth the standard of review generally applicable in

23

habeas corpus cases under the Antiterrorism and Effective Death Penalty Act

24

(“AEDPA”):

25
26
27

An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect
to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim --

28

2

App. 0004
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 3 of 13

1
2
3
4

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.

5
6

A state court decision violates clearly established Supreme Court precedent “if

7

the state court applies a rule that contradicts the governing law set forth in [the Supreme

8

Court’s] cases” or “if the state court confronts a set of facts that are materially

9

indistinguishable from a decision of [the Supreme] Court.” Lockyer v. Andrade, 538 U.S.

10

63, 73 (2003) (quoting Williams v. Taylor, 529 U.S. 362, 405-06 (2000), and citing Bell

11

v. Cone, 535 U.S. 685, 694 (2002)). A state court decision is an unreasonable

12

application of clearly established Supreme Court precedent “if the state court identifies

13

the correct governing legal principle from [the Supreme] Court’s decisions but

14

unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 75 (quoting

15

Williams, 529 U.S. at 413). “The ‘unreasonable application’ clause requires the state

16

court decision to be more than incorrect or erroneous. The state court’s application of

17

clearly established law must be objectively unreasonable.” Id. (quoting Williams, 529

18

U.S. at 409-10) (internal citation omitted).

19

The Supreme Court has instructed that “[a] state court’s determination that a

20

claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists could

21

disagree’ on the correctness of the state court’s decision.” Harrington v. Richter, 562

22

U.S. 86, 101 (2011) (citing Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). The

23

Supreme Court has stated “that even a strong case for relief does not mean the state

24

court’s contrary conclusion was unreasonable.” Id. at 102 (citing Lockyer, 538 U.S. at

25

75); see also Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (describing the standard as

26

a “difficult to meet” and “highly deferential standard for evaluating state-court rulings,

27

which demands that state-court decisions be given the benefit of the doubt” (internal

28

quotation marks and citations omitted)).

3

App. 0005
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 4 of 13

1

IV.

DISCUSSION

2

Rodriguez’s remaining grounds for relief involve claims that his trial counsel was

3

ineffective. In Strickland, the Supreme Court propounded a two-prong test for analysis

4

of claims of ineffective assistance of counsel requiring the petitioner to demonstrate (1)

5

that the attorney’s “representation fell below an objective standard of reasonableness,”

6

and (2) that the attorney’s deficient performance prejudiced the defendant such that

7

“there is a reasonable probability that, but for counsel’s unprofessional errors, the result

8

of the proceeding would have been different.” Strickland v. Washington, 466 U.S. 668,

9

688, 694 (1984). A court considering a claim of ineffective assistance of counsel must

10

apply a “strong presumption that counsel’s conduct falls within the wide range of

11

reasonable professional assistance.” Id. at 689. The petitioner’s burden is to show “that

12

counsel made errors so serious that counsel was not functioning as the ‘counsel’

13

guaranteed the defendant by the Sixth Amendment.” Id. at 687. Additionally, to establish

14

prejudice under Strickland, it is not enough for the habeas petitioner “to show that the

15

errors had some conceivable effect on the outcome of the proceeding.” Id. at 693.

16

Rather, the errors must be “so serious as to deprive the defendant of a fair trial, a trial

17

whose result is reliable.” Id. at 687.

18

Where a state district court previously adjudicated the claim of ineffective

19

assistance of counsel under Strickland, establishing that the decision was unreasonable

20

is especially difficult. See Harrington, 562 U.S. at 104-05. In Harrington, the United

21

States Supreme Court clarified that Strickland and § 2254(d) are each highly deferential,

22

and when the two apply in tandem, review is doubly so. Id. at 105; see also Cheney v.

23

Washington, 614 F.3d 987, 995 (9th Cir. 2010) (internal quotation marks omitted)

24

(“When a federal court reviews a state court’s Strickland determination under AEDPA,

25

both AEDPA and Strickland’s deferential standards apply; hence, the Supreme Court’s

26

description of the standard as doubly deferential.”) The Supreme Court further clarified

27

that, “[w]hen § 2254(d) applies, the question is not whether counsel’s actions were

28

///

4

App. 0006
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 5 of 13

1

reasonable. The question is whether there is any reasonable argument that counsel

2

satisfied Strickland’s deferential standard.” Harrington, 562 U.S. at 105.

3
4
5
6
7
8
9

In Rodriguez’s appeal of the denial of his state habeas petition, the Nevada Court
of Appeals noted that:
The district court conducted an evidentiary hearing and received testimony
from Rodriguez, his trial counsel, and his sister. The district court found that
Rodriguez failed to demonstrate that trial counsel had a legal duty to inform
him of the right to a direct appeal, that further trial preparation would have
produced helpful information, or that further sentencing preparation would
have produced mitigation witnesses whose testimony would have led to a
lesser sentence. And the district court concluded that Rodriguez failed to
meet his burden to prove ineffective assistance of counsel.

10
11

(ECF No. 11-4 at 2-3.) The Nevada Court of Appeals then held that because the district

12

court’s factual findings were supported by substantial evidence, Rodriguez failed to

13

show that he was deprived of effective assistance of counsel. (Id.)

14

The Nevada Court of Appeal’s rejection of Rodriguez’s Strickland claims was

15

neither contrary to nor an unreasonable application of clearly established law as

16

determined by the United States Supreme Court. The Court will address the two

17

remaining ineffective assistance of counsel grounds in turn below.

18

A. Ground 1(b)

19

In Ground 1(b), Rodriguez alleges that his federal constitutional rights were

20

violated when his trial counsel failed to inform him that he had the right to a direct appeal.

21

(ECF No. 23 at 10.) Rodriguez explains that a rational defendant would have wanted to

22

appeal the maximum sentence he received, so his trial counsel’s duty to discuss an

23

appeal with him was triggered. (ECF No. 46 at 9.)

24
25

During Rodriguez’s change of plea canvass, the following colloquy took place
between Rodriguez and the state district court:

26

THE COURT:

27

[Rodriguez]:

28

If the jury were to find you guilty, you could appeal. Do
you understand that?
Yes, I do. Can I appeal now that - - because of - - if my
pleading guilty, is that still appealable?

5

App. 0007
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 6 of 13

1

THE COURT:

No. The jury will not hear and decide the remainderer
[sic] of your trial if the Court accepts your guilty plea.
Do you understand that?

[Rodriguez]:

Yes, I do, Your Honor.

2
3
4

(ECF No. 25-2 at 71.) Rodriguez did not appeal his judgment of conviction.

5

Over six years later, during Rodriguez’s post-conviction evidentiary hearing,

6

Rodriguez testified that his trial counsel “never brought any appeal issues up, or

7

[Rodriguez] would have [taken] back [his] sentence in a heartbeat.” (ECF No. 25-17 at

8

5, 33.) Rodriguez did not ask his trial counsel to file an appeal because he “didn’t know

9

about an appeal” until he was informed of such by other inmates. (Id. at 33.) Rodriguez

10

would have “appeal[ed] the Motions to Suppress” because he “knew [his] Miranda rights

11

weren’t read.” (Id.)

12

Rodriguez’s trial counsel testified at the evidentiary hearing that he did not

13

“remember [Rodriguez] asking [him] to file an appeal.” (ECF No. 25-17 at 45, 53.)

14

Rodriguez’s trial counsel “was a little surprised based on [his] experience that

15

[Rodriguez] got the max[imum]” sentence, but he explained that “[j]ust because you

16

don’t like the sentence, that is not really the basis for appeal.” (Id. at 53.) Although he

17

acknowledged that Rodriguez was unhappy with the sentence he received, there were

18

no appealable issues that stood out to Rodriguez’s trial counsel because the state

19

district court thoroughly canvassed Rodriguez before accepting his plea. (Id. at 54, 58.)

20

The state district court, finding that Rodriguez was not credible (ECF No. 25-18

21

at 3), held that “there is no evidence or reasonable inference from evidence or legal

22

argument that there would be any ground for appeal in this case” and that Rodriguez

23

“entered his guilty plea freely and voluntarily without threats or promises or any kind and

24

with an understanding of the nature of the offense and the consequences of his guilty

25

plea.” (ECF No. 25-17 at 68.)

26

The Strickland “test applies to claims . . . that counsel was constitutionally

27

ineffective for failing to file a notice of appeal.” Roe v. Flores-Ortega, 528 U.S. 470, 477

28

(2000). When counsel “disregards specific instructions from the defendant to file a notice

6

App. 0008
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 7 of 13

1

of appeal,” counsel has acted unreasonably. Id. However, “where the defendant neither

2

instructs counsel to file an appeal nor asks that an appeal not be taken” the question is

3

“whether counsel in fact consulted with the defendant about the appeal.” Id. at 478.

4

Consulting means “advising the defendant about the advantages and disadvantages of

5

taking an appeal, and making a reasonable effort to discover the defendant’s wishes.”

6

Id. However, “[i]f counsel has not consulted with the defendant, the court must in turn

7

ask . . . whether counsel’s failure to consult with the defendant itself constitutes deficient

8

performance.” Id. Following the rejection of a bright-line rule, the Supreme Court

9

concluded that “counsel has a constitutionally imposed duty to consult with the

10

defendant about an appeal when there is reason to think either (1) that a rational

11

defendant would want to appeal . . . , or (2) that this particular defendant reasonably

12

demonstrated to counsel that he was interested in appealing.” Id. at 480. An example of

13

the first instance imposing a duty to consult is where “there are nonfrivolous grounds for

14

appeal.” Id. Where the defendant pleaded guilty, “the court must consider such factors

15

as whether the defendant received the sentence bargained for as part of the plea and

16

whether the plea expressly reserved or waived some or all appeal rights.” Id. And in

17

order “to show prejudice in these circumstances, a defendant must demonstrate that

18

there is a reasonable probability that, but for counsel’s deficient failure to consult with

19

him about an appeal, he would have timely appealed.” Id. at 484.

20

Rodriguez never gave his trial counsel specific instructions to file a notice of

21

appeal, and it is not clear from the record that Rodriguez’s trial counsel consulted him

22

about appealing. Thus, the question here is whether Rodriguez’s trial counsel’s duty to

23

consult Rodriguez about an appeal was triggered. Flores-Ortega, 528 U.S. at 480. The

24

Nevada Court of Appeals reasonably determined that the state district court’s finding

25

that Rodriguez failed to demonstrate that his trial counsel’s duty to inform him of the

26

right to a direct appeal was triggered was supported by substantial evidence.

27

First, there was no reason for Rodriguez’s trial counsel to think that “a rational

28

defendant would want to appeal.” Id. at 480. As Rodriguez’s trial counsel testified at the

7

App. 0009
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 8 of 13

1

post-conviction evidentiary hearing, there were no appealable issues that stood out to

2

him and “[j]ust because you don’t like the sentence, that is not really the basis for

3

appeal.” (ECF No. 25-17 at 53-54.) Indeed, Rodriguez was sentenced to life without the

4

possibility of parole (ECF No. 25-3 at 2), which Rodriguez acknowledged was a possible

5

sentence he faced as a result of his plea. (See ECF No. 25-1 at 4-5.) Further,

6

Rodriguez’s guilty plea agreement provided that he understood that he had “the right to

7

appeal from adverse rulings on pretrial motions only if the State and the Court

8

consent[ed] to [his] right to appeal,” and that, “[i]n the absence of such an agreement,

9

[he] underst[oo]d that any substantive or procedural pretrial issue or issues which could

10

have been raised at trial [were] waived by [his] plea.” (ECF No. 25-1 at 4.) Similarly,

11

during Rodriguez’s guilty plea canvass, the state district court asked if Rodriguez

12

understood that “if the Court accepts [his] plea of guilty, there will be no issues for the

13

appellate court to consider.” (ECF No. 25-2 at 71.) Rodriguez answered in the

14

affirmative. (Id.) These facts weigh against a finding that Rodriguez’s trial counsel had

15

a reason to think that Rodriguez would have wanted to appeal his judgment of

16

conviction.

17

Second, there was no reason for Rodriguez’s trial counsel to think that Rodriguez

18

“was interested in appealing.” Flores-Ortega, 528 U.S. at 480. Rodriguez asserts that

19

his statements during the plea canvass wherein he asked whether he could appeal his

20

guilty plea triggered his trial counsel’s duty to talk to him about appealing. (ECF No. 46

21

at 10.) It cannot be concluded that this question made to the state district court two

22

months prior to his sentencing hearing demonstrated Rodriguez’s interest in appealing

23

his judgment of conviction. It was merely a question about his right to appeal his plea in

24

response to a statement by the state district court that Rodriguez could appeal a guilty

25

verdict. (See ECF No. 25-2 at 71). This clarification of his rights was not an indication to

26

this trial counsel that he wanted to appeal, especially since Rodriguez had yet to be

27

sentenced.

28

///

8

App. 0010
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 9 of 13

1

Accordingly, because the Nevada Court of Appeals reasonably determined that

2

Rodriguez failed to demonstrate deficiency on the part of his trial counsel for not advising

3

him of his right to appeal, Strickland, 466 U.S. at 688, Rodriguez is denied federal

4

habeas relief for Ground 1(b).

5

B. Ground 2

6

In Ground 2, Rodriguez alleges that his federal constitutional rights were violated

7

when his trial counsel failed to investigate and present mitigating evidence on his behalf

8

at sentencing. (ECF No. 23 at 12.) Specifically, Rodriguez asserts that his trial counsel

9

should have presented his sister, Sandra Florez, as a mitigating witness to testify about

10

his nonviolent character. (Id.) Rodriguez contends that he received a harsher sentence

11

than he otherwise would have if his trial counsel had properly prepared for the

12

sentencing hearing and presented mitigating evidence. (ECF No. 46 at 13.)

13

During Rodriguez’s sentencing hearing, Rodriguez’s trial counsel explained that

14

“there were four letters that were faxed to [his] office [the day before]. . . and some [other

15

letters that were sent later that evening] that [he] presented to the Court.” (ECF No. 25-

16

4 at 3.) Rodriguez’s trial counsel “ask[ed] the Court to consider [those letters] in

17

mitigation of sentence.” (Id. at 4.) The State summarized those letters: “you have letters

18

from his ex-wife and other relatives asking for leniency, your honor, indicating that he’s

19

a caring and loving husband, that they’re basically shocked by this, didn’t think he was

20

capable of it.” (Id. at 13.) Rodriguez’s trial counsel argued that “Rodriguez did ultimately

21

take responsibility for his actions,” that Rodriguez’s “intention was never that someone

22

was going to die,” and that an appropriate sentence would be “the life term with parole

23

beginning after 20 years.” (Id. at 4.)

24

At his post-conviction evidentiary hearing, Rodriguez testified that he did not meet

25

or talk to his trial counsel between his change of plea hearing and his sentencing

26

hearing, so he never had the chance to discuss any type of mitigation with him. (ECF

27

No. 25-17 at 5, 30.) Rodriguez did not know that he “was supposed to present witnesses”

28

or other evidence at his sentencing hearing, so “he never brought it up” with his trial

9

App. 0011
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 10 of 13

1

counsel. (Id. at 30-31.) Rodriguez did, however, request that his ex-wife “gather up some

2

letters” to be presented to the state district court. (Id. at 31.)

3

Rodriguez’s trial counsel testified at the post-conviction evidentiary hearing that

4

he did not remember what he did to prepare for Rodriguez’s sentencing. (ECF No. 25-

5

17 at 45, 51.) However, he explained that “if [he] had letters from somebody, [he] would

6

have probably been the one to ask somebody to write a letter on behalf of [the] client.”

7

(Id. at 55.)

8

Rodriguez called Sandra Florez, his sister, to testify at his post-conviction

9

evidentiary hearing that he was never violent and was, in fact, “a great older brother,

10

caring, loving, hard working.” (ECF No. 25-17 at 60-61, 65.) Florez was never contacted

11

by anyone to speak on Rodriguez’s behalf at his sentencing hearing, but she admitted

12

that she was not in attendance for that hearing and did not remember why she failed to

13

attend. (Id. at 61, 64.)

14

Following the presentation of witnesses and argument at the post-conviction

15

evidentiary hearing, the state district court found that Rodriguez’s trial counsel was not

16

deficient, explaining that Rodriguez’s trial counsel “made an argument in mitigation on

17

behalf of his client, . . . he opposed the State’s position at sentencing[, and h]e presented

18

letters to the Court in further mitigation.” (ECF No. 25-17 at 74.) The state district court

19

further reasoned that “[t]he only potential witness who has been identified during this

20

hearing is . . . Ms. Florez,” and “Ms. Florez testified she knows nothing about the

21

circumstances of the murder,” that Rodriguez “never advised her of his interest in having

22

her appear to testify at the sentencing,” and that she “did not appear [at Rodriguez’s

23

sentencing] and she has no reason for why she didn’t appear.” (Id.)

24

Counsel’s performance at the penalty phase is measured against “prevailing

25

professional norms.” Strickland, 466 U.S. at 688. And this Court “must avoid the

26

temptation to second-guess [counsel’s] performance or to indulge ‘the distorting effects

27

of hindsight.’” Mayfield v. Woodford, 270 F.3d 915, 927 (9th Cir. 2001) (citing Strickland,

28

466 U.S. at 689). But “judicial deference to counsel is predicated on counsel’s

10

App. 0012
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 11 of 13

1

performance of sufficient investigation and preparation to make reasonably informed,

2

reasonably sound judgments.” Id. When challenging a trial counsel’s actions in failing to

3

present mitigating evidence during a sentencing hearing, the “principal concern . . . is

4

not whether counsel should have presented a mitigation case[, but instead] . . . whether

5

the investigation supporting counsel’s decision not to introduce mitigating evidence . . .

6

was itself reasonable.” Wiggins v. Smith, 539 U.S. 510, 522-23 (2003) (emphasis in

7

original).

8

The Nevada Court of Appeals reasonably determined that the state district court’s

9

finding that Rodriguez failed to demonstrate that further sentencing preparation would

10

have produced mitigating witnesses whose testimony would have led to a lesser

11

sentence was supported by substantial evidence. Rodriguez’s trial counsel did not

12

remember what he did to prepare for Rodriguez’s sentencing, but he explained that he

13

probably asked individuals to write letters on Rodriguez’s behalf. (ECF No. 25-17 at 51,

14

55.) These letters from Rodriguez’s family asked for leniency for Rodriguez, indicating

15

that he was a caring person. (See ECF No. 25-4 at 13.) Although Rodriguez’s mitigating

16

evidence was not presented in the form that Rodriguez allegedly desired—live

17

testimony—Rodriguez’s trial counsel presented this mitigating evidence in a strategic,

18

reasonable manner. Harrington, 562 U.S. at 106 (“Rare are the situations in which the

19

wide latitude counsel must have in making tactical decisions will be limited to any one

20

technique or approach.”); see also Strickland, 466 U.S. at 688-89 (“No particular set of

21

detailed rules for counsel’s conduct can satisfactorily take account of the variety of

22

circumstances faced by defense counsel or the range of legitimate decisions regarding

23

how best to represent a criminal defendant.”). In addition to these letters, Rodriguez’s

24

trial counsel also made arguments in support of mitigation: Rodriguez’s trial counsel

25

argued that Rodriguez took responsibility for his actions and never intended for the

26

victim to die. (ECF No. 25-4 at 4.) Accordingly, the Nevada Court of Appeals reasonably

27

determined that Rodriguez’s trial counsel was not deficient. Strickland, 466 U.S. at 688.

28

///

11

App. 0013
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 12 of 13

1

Further, regarding prejudice, Florez’s testimony at the post-conviction evidentiary

2

hearing about Rodriguez being a “caring, loving, hard working” individual appears to

3

mirror the mitigating letters presented to the state district court. (ECF No. 25-17 at 60-

4

61.) As such, Rodriguez fails to demonstrate that the addition of Florez’s opinion about

5

his character would have changed his sentence. Strickland, 466 U.S. at 694; see also

6

Djerf v. Ryan, 931 F.3d 870, 881 (9th Cir. 2019) (“Strickland prejudice is not established

7

by mere speculation.”); United States v. Berry, 814 F.2d 1406, 1409 (9th Cir. 1987)

8

(denying an ineffective-assistance-of-counsel claim based on counsel’s refusal to call

9

witnesses because the defendant “offers no indication of . . . how their testimony might

10

have changed the outcome of the hearing”). Therefore, the Nevada Court of Appeals

11

reasonably determined that Rodriguez failed to demonstrate prejudice. Strickland, 466

12

U.S. at 694.

13

Thus, because the Nevada Court of Appeals reasonably determined that

14

Rodriguez’s ineffective-assistance-of-counsel claim lacked merit, Rodriguez is denied

15

federal habeas relief for Ground 2. 1

16

V.

CERTIFICATE OF APPEALABILITY

17

This is a final order adverse to Rodriguez. As such, Rule 11 of the Rules Governing

18

Section 2254 Cases requires this Court to issue or deny a certificate of appealability

19

(“COA”). Therefore, this Court has sua sponte evaluated the claims within the Petition for

20

suitability for the issuance of a COA. See 28 U.S.C. § 2253(c); Turner v. Calderon, 281

21

F.3d 851, 864-65 (9th Cir. 2002). Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue

22

only when the petitioner “has made a substantial showing of the denial of a constitutional

23
24
25
26
27
28

1Rodriguez

requested that this Court “[c]onduct an evidentiary hearing at which
proof may be offered concerning the allegations in [his] [A]mended [P]etition and any
defenses that may be raised by [R]espondents.” (ECF No. 23 at 14.) Rodriguez fails to
explain what evidence would be presented at an evidentiary hearing, especially since an
evidentiary hearing was held before the state district court on Rodriguez’s state habeas
petition. Additionally, this Court has already determined that Rodriguez is not entitled to
relief, and neither further factual development nor any evidence that may be proffered at
an evidentiary hearing would affect this Court’s reasons for denying relief. Accordingly,
Rodriguez’s request for an evidentiary hearing is denied.
12

App. 0014
Case 3:15-cv-00339-MMD-WGC Document 49 Filed 05/06/20 Page 13 of 13

1

right.” With respect to claims rejected on the merits, a petitioner “must demonstrate that

2

reasonable jurists would find the district court’s assessment of the constitutional claims

3

debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (citing Barefoot v.

4

Estelle, 463 U.S. 880, 893 & n.4 (1983)). Applying this standard, the Court finds that a

5

certificate of appealability is unwarranted.

6
7
8
9

VI.

CONCLUSION
It is therefore ordered that the First Amended Petition for Writ of Habeas Corpus

by a Person in State Custody Pursuant to 28 U.S.C. § 2254 (ECF No. 23) is denied.
It is further ordered that Petitioner is denied a certificate of appealability.

10

The Clerk of Court is directed to enter judgment accordingly and close this case.

11

DATED THIS 6th day of May 2020.

12
13

MIRANDA
MI
M
IRA
ANDA M. DU
CHIEF UNITED STATES DISTRICT JUDGE

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

13

App. 0015
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 1 of 16

6

RENE L. VALLADARES
Federal Public Defender
State Bar No. 11479
T. KENNETH LEE
Assistant Federal Public Defender
Ohio State Bar No. 0065158
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)
ken_lee@fd.org

7

Attorney for Petitioner Edward G. Rodriguez

1
2
3
4
5

8

UNITED STATES DISTRICT COURT

9

DISTRICT OF NEVADA

10
11

EDWARD G. RODRIGUEZ, 1
Petitioner,

12
v.

13
14

TIMOTHY FILSON, et. al.,

Case No. 3:15-cv-00339-MMD-WGC
FIRST AMENDED PETITION FOR
WRIT OF HABEAS CORPUS BY A
PERSON IN STATE CUSTODY
PURSUANT TO 28 U.S.C. § 2254

Respondents.

15
16
17

Petitioner, Edward Rodriguez, by and through his attorney of record, T.

18

Kenneth Lee, Assistant Federal Public Defender, files this First Amended Petition

19

for Writ of Habeas Corpus by a person in State Custody Pursuant to 28 U.S.C. §

20

2254. 2

21
22
23
24
25
26
27

The state court and the Nevada Department of Corrections (NDOC) have
Petitioner last name as Rodriquez. See, e.g., Ex. 20. NDOC does, though, list
Rodriguez as an alias last name. From Petitioner’s pro se filings it appears that
Rodriguez is the appropriate spelling. As a result, undersigned counsel will adopt
Rodriguez as well.
1

The exhibits referenced in this First Amended Petition are identified as “Ex.”
Petitioner reserves the right to file supplemental exhibits as needed and relevant.
Additionally, if Respondents have additional exhibits they believe are necessary for
this Court’s review of the grounds raised herein or in a Motion to Dismiss, should
Respondents file one, Petitioner would have no objection to Respondents beginning
their numbering from the end of exhibits attached hereto. For example, if Petitioner’s
2

App. 0016
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 2 of 16

1

I.

Procedural History

2

On day three of Edward Rodriguez’s (Rodriguez) jury trial, Rodriguez changed

3

his plea to guilty to the offense of murder. See Ex. 19, Tr.9/12/07 at 66-77; see also

4

Ex. 18. Rodriguez was subsequently sentenced to life without the possibility of parole

5

and was given two hundred and ninety-six (296) days of credit for time served. Ex.

6

20. Rodriguez is currently serving his sentence at Lovelock Correctional Center in

7

Lovelock, Nevada.

8

A.

9

Rodriguez was charged with one count murder by way of Criminal Complaint

10

in the Justice Court of Reno Township on January 18, 2007. Exs. 2, 3. Rodriguez

11

was arraigned on January 26, 2007, and the Washoe County Public Defender was

12

appointed. Exs. 1a, 4.

13
14

Justice Court Proceedings

Due to a conflict, the Public Defender was removed from the case and Kevin
Van Ry appointed on March 14, 2007. Exs. 5, 6.

15

On March 21, 2007, and April 3, 2007, Rodriguez with Attorney Van Ry

16

appeared for Rodriguez’s preliminary hearing. See generally Ex. 7, Tr/3/21/07. At this

17

hearing, the State presented the testimonies of Ellen Clark, Thomas Nigri, Donald

18

Carter, Randall Baker, Donald Martinez, Benjamin Rodriquez, Phillip Rodriguez,

19

Lisa Rodriguez, Tonya Baptista, Lawrence McMillen, Christiaan Reichert, Lisa

20

Harris, Jeffrey Riolo, Donicio Gonzales, and Ron Chalmers. See generally Ex. 7,

21

Tr.3/21/07. Rodriguez waived his right to testify and call witnesses during the

22

Preliminary Examination. Id., Tr.3/21/07 at 189. The Court found probable cause,

23

and the case was bound over to the Second Judicial District Court. Id., Tr.3/21/07 at

24
25
26
27

last exhibit attached to his amended petition was numbered 55, then Respondents’
supplemental exhibits would begin at 56. Petitioner believes this would aid the
Court, and would prevent the parties from identifying the same document by different
numbers, which could cause confusion.
2

App. 0017
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 3 of 16

1

191. An Amended Complaint, charging one count of Murder, was filed in open court

2

during these proceedings. Ex. 8.

3

B.

4

The Information was filed in the Second Judicial District Court on April 11,

5

Trial Court Proceedings

2007. Ex. 9.

6

Rodriguez, present with appointed counsel Kevin Van Ry, was arraigned on

7

April 18, 2007. See generally Ex. 10, Tr.4/18/07. Rodriguez waived his right to a

8

speedy trial. Id., Tr.4/18/07 at 3.

9

The State sought to amend the Information to incorporate aiding and abetting

10

to the charged offense. Exs. 11, 12, 14. The Amended Information was filed on

11

September 6, 2007. Ex. 15.

12

Trial commenced on September 10, 2007, and concluded on September 12,

13

2007, after Rodriguez entered a guilty plea. Exs. 16-19. Rodriguez was arraigned on

14

the Amended Information during the first day of trial. Ex. 16, Tr.9/10/07 at 4.

15

On November 9, 2007, Rodriguez was sentenced to life in prison without the

16

possibility of parole and was given 296 days of credit for time served. Ex. 21,

17

Tr.11/9/07 at 16-17. The Judgment was also entered on this date. Ex. 20.

18

Rodriguez did not file a direct appeal.

19

C.

20

On April 28, 2008, Rodriguez’s Pro Se Motion for Withdrawal of Attorney of

21

Record or, in the Alternative, Request for Records/Court Case Documents; Pro Se

22

Motion for the Appointment of Counsel & Request for Evidentiary Hearing; Affidavit

23

in Support of Motion to Proceed In Forma Pauperis; Motion for Leave to Proceed In

24

Forma Pauperis; and timely Pro Se Petition for Writ of Habeas Corpus (Post-

25

Conviction) were filed. Exs. 22-27. Rodriguez raised the following issues:

26
27

Nevada District Court Habeas Proceedings (State Post-Conviction)

1) Petitioner was denied effective assistance of counsel at the
appeal stage of the proceedings in violation of his Fifth, Sixth,
and Fourteenth Amendments to the U.S. Constitution.

3

App. 0018
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 4 of 16

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Counsel never informed petitioner of his statutory right to a
direct appeal nor did counsel provide petitioner an
understanding of what a direct appeal was or the positive
consequences therefrom; or, the procedures related to effecting
a direct appeal. Petitioner had a statutory right on appeal to:
a. challenge the constitutional validity of the statute on
which the conviction was based;
b. challenge the sentence imposed on Constitutional or
other grounds; and
c. present a challenge to procedures employed prior to
plea entry, etc.
2) Petitioner was denied effective assistance of counsel, a fair
jury trial, and, equal protection of the law in violation of the
Fifth, Sixth, and Fourteenth Amendments to the U.S.
Constitution. Petitioner’s court appointed counsel filed to:
a. Interview potentially crucial witnesses;
b. Contact any possible witnesses to formulate and raise a
defense strategy;
c. Determine and interview prosecution witnesses;
d. Conduct discovery;
e. Consult with any potential expert witnesses;
f. Conduct proper Pre-Trial investigation in order to
formulate and choose available defense strategy;
g. Determine and discuss potential defense witnesses;
h. Determine and discuss potential defense evidence;
i. Make any factual or legal investigation to determine if
a defense could be launched;
j. To discuss a “diminished capacity” defense; and
k. Consult adequately with petitioner in a manner
determined to be far above the level of ensuring
petitioner was adequately informed and fully
understood each and every facet and stage of the
proceeding.
3) Petitioner was denied effective assistance of counsel, a fair
jury trial, and equal protection of the law in violation of the
Fifth, Sixth, and Fourteenth Amendments of the U.S.
Constitution. Petitioner’s court appointed counsel failed to file
motions to suppress evidence after petitioner asked Counsel
on 3/21/07, 418/07, 6/1/07, 8/24/07, and on 9/4/07.
4) Petitioner was denied effective assistance of counsel, a fair
trial, Due process, and equal protection of the law in violation
of the Fifth, Sixth, and Fourteenth Amendments of the U.S.
Constitution. Petitioner entered into the plea agreement
solely relying upon counsel’s advice. Counsel failed to inform
petitioner of the total and overall ramifications of a negative
nature, when entering a guilty plea; ie. Range of punishment
he faced post-sentencing as petitioner would not be classified

4

App. 0019
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 5 of 16

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

and treated differently by the prison system by reason of the
nature or his crime and anticipated enhancement. Counsel
misrepresented the outcome of the proceedings in order to
coerce petitioner into entering into the plea agreement and a
guilty plea.
5) Petitioner was denied effective assistance of counsel, a fair
trial, due process, and equal protection of the law in violation
of the Fifth, Sixth, and Fourteenth Amendments of the U.S.
Constitution. Petitioner entered into the plea agreement
solely relying upon Counsel’s advice.
6) The Court and Counsel denied petitioner a fair jury trial, due
process, and equal protection of the law in violation of the
Fifth, Sixth, and Fourteenth Amendments to the Constitution.
The Court failed to fully and properly canvas Petitioner to
elicit a factual basis for petitioner’s guilty plea and to properly
ensure petitioner fully understood:
a.
b.
c.
d.
e.

The plea agreement contents;
The ramifications of the sentence to be imposed;
The ramifications of the plea to be entered;
Waiving his self incrimination rights:
Waiving his right to a fair jury trial; moreover, the court
failed to properly canvas petitioner to ensure;
a. Petitioner entered into the plea agreement to
plead guilty willfully, knowingly and voluntarily
asserting coercion or misrepresentation of
ineffective counsel;
b. Petitioner knew all possible consequences of
pleading guilty including “the range of possible
punishments” that may be imposed and possible
future negative ramifications therefrom;
c. Petitioner knew the seriousness of the crime to
which he is pleading guilty and what the state
would have to prove and satisfy a jury that
petitioner committed the crime.

7) Petitioner was denied effective assistance of counsel, a fair
jury trial, due process and equal protection of the law during
the sentencing phase of the proceedings in violation of the
Fifth, Sixth, and Fourteenth Amendments of the U.S.
Constitution. Counsel did nothing more than stand by and
agree with the state’s position at sentencing. Counsel as
essentially required failed to:
a. call witnesses to testify on Petitioner’s behalf;
b. present any mitigating evidence;

5

App. 0020
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 6 of 16

1
2
3
4
5
6
7
8
9
10

c. also moved sentencing date 2 days ahead without
notifying petitioner’s family about the new sentencing
date, which made it impossible for family to be there;
d. Present the fullest of information and evidence on
petitioner’s life and character in a highly relevant
manner to provide mitigation and which is absolutely
essential to ensure the court would select an
appropriate sentence, which it was unable to and did
not do.
8) NRS 193.165 is vague and ambiguous violating petitioner’s
Sixth and Fourteenth Amendments of and to the U.S.
Constitution.
9) Petitioner was denied effective assistance of counsel, a fair
jury trial, and equal protection of the law in violation of the
Fifth, Sixth, and Fourteenth Amendments to the U.S.
Constitution.
Ex. 24.

11

Jenny Huback was appointed on September 3, 2008, to represent Rodriguez in

12

his post-conviction proceedings. Ex. 28. Attorney Huback requested an investigator

13

and Private Investigator Kenneth Peele was appointed. Exs. 29, 30. Additionally,

14

Attorney Huback requested and was granted the appointment of a DNA expert to

15

conduct an independent examination of the DNA evidence used at trial. Exs. 31-33.

16

Attorney Huback did not file a supplement to Rodriguez’s pro se state post-conviction

17

petition. See Ex. 35.

18

An Evidentiary was held on this matter on January 21, 2014. See generally

19

Ex. 34, Tr.1/21/14. After hearing the testimonies of Rodriguez, Van Ry (Rodriguez’s

20

trial attorney), Sandra Florez (Rodriguez’s sister), and arguments of counsel the

21

Court denied relief. Id., Tr.1/21/14 at 73.

22
23

The Findings of Fact, Conclusions of Law and Judgment was filed on January
30, 2014. Ex. 35. The Notice of Entry of Order was filed on April 9, 2014. Ex. 41.

24

Rodriguez filed a Pro Se Notice of Appeal on February 18, 2014. Exs. 36, 37.

25

The Nevada Supreme Court docketed this appeal as case number 65067. The case

26

was remanded for appointment of counsel on March 6, 2014. Ex. 38. Thomas Qualls

27

was subsequently appointed. Exs. 39, 40.
6

App. 0021
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 7 of 16

1

Attorney Qualls raised the following issues:

2

1.
Trial counsel provided ineffective assistance of
counsel in failing to inform Rodriguez as to his appeal
rights, and the District Court misinformed Rodriguez that
he had no right to appeal, in violation of his right to appeal,
violating Rodriguez’s rights to due process, equal
protection, and a fair trial under the Fifth, Sixth, and
Fourteenth Amendments to the U.S. and Nevada
constitutions.

3
4
5
6
7

2.
Trial counsel provided ineffective assistance of
counsel where he did not sufficiently prepare for the
murder trial, including his failure to sufficiently explore a
potential alibi witness, in violation of Rodriguez’s rights to
due process, equal protection, and a fair trial, under the
Fifth, Sixth, Eighth, and Fourteenth Amendments to the
U.S. and Nevada constitutions.

8
9
10
11
12

3.
Trial counsel provided ineffective assistance of
counsel where he did not sufficiently prepare for the
sentencing hearing, including his failure to procure
available mitigation witnesses, in violation of Rodriguez’s
Rights to due process, equal protection, and a fair trial,
under the Fifth, Sixth and Fourteenth Amendments to the
U.S. and Nevada constitutions.

13
14
15
16

4.
During the Evidentiary Hearing, the District Court
made a ruling on the Petitioner’s claims, including claims
related to the plea canvass, without the benefit of a
transcript of the plea canvass, in violation of Rodriguez’s
rights to due process, equal protection, and a fair trial,
under the Fifth, Sixth, Eighth, and Fourteenth
Amendments to the U.S. and Nevada constitutions.

17
18
19
20
21

5.
The cumulative effect of the various errors alleged
herein resulted in violations of Rodriguez’s rights under the
State and Federal constitutional guarantees of due process
of law, equal protection of the laws, and a reliable sentence
pursuant to U.S. Const. V, VI, VIII, & VIX.

22
23
24
25
26

Ex. 42.

27
7

App. 0022
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 8 of 16

1
2

The State filed its Answering Brief on November 13, 2014. Ex. 44. Counsel
replied on January 13, 2015. Ex. 45.

3

The appeal was transferred to the Court of Appeals of Nevada on February 9,

4

2015. Ex. 46. The Order of Affirmance was filed on April 14, 2015, and the Remittitur

5

issued on May 11, 2015. Exs. 47, 48.

6

D.

7

Rodriguez mailed his pro se Petition for a Writ of Habeas Corpus Pursuant to

8

28 U.S.C. § 2254 by a Person in State Custody and an Application to Proceed In

9

Forma Pauperis on June 15, 2015. ECF no. 1, ECF no. 1-1. This Court denied

10

Petitioner’s request to proceed in forma pauperis on July 1, 2015. ECF no. 3.

11

Petitioner’s pro se Request for Appointment of Counsel was filed on July 10, 2015.

12

ECF no. 4. On November 13, 2015, this Court appointed the Federal Public Defender

13

to represent Rodriguez. ECF no. 6. Undersigned counsel entered his appearance on

14

December 14, 2015. ECF no. 8.

Federal Court – 28 U.S.C. § 2254 Federal Habeas Corpus

15

Due to the limited time remaining to file a timely 28 U.S.C. §2254 petition and

16

the need to protect the available remedies, undersigned counsel filed a supplement

17

to Rodriguez’s pro se Petition on December 18, 2015. ECF no. 10. Respondents filed

18

a Motion to Strike Supplement to Pro Se Petition and the parties litigated this issue.

19

ECF nos. 12, 13, 14, 15, 16. On September 28, 2016, this Court granted Rodriguez’s

20

request to supplement his pro se federal habeas corpus petition—finding “Rodriguez

21

appears to have acted in good faith in filing the supplement, and there is no

22

indication that respondents will be prejudiced.” ECF no. 20 at 2-3.

23
24
25
26
27
8

App. 0023
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 9 of 16

1
2

This Amended Petition follows.
II.

Grounds for Relief

3

GROUND ONE

4

Trial counsel provided ineffective assistance of counsel in
failing to inform Rodriguez as to his appeal rights, and the
district court misinformed Rodriguez that he had no right
to appeal, in violation of Rodriguez’s rights to Due Process,
Equal Protection, and a Fair Trial, under the Fifth, Sixth,
Eighth, and Fourteenth Amendments to the U.S.
Constitution.

5
6
7
8
9
10
11

Statement of Exhaustion: This claim was presented to, and decided upon by
the Nevada Court of Appeals on appeal of the denial of post-conviction relief. See Exs.
42, 47.

A.

13

Trial court denied Rodriguez his constitutional
right to direct appeal when it misinformed him that
he had no such right.

14

Statement in Support of Claim: Nevada has established a process of appellate

15

review that must comply with the federal due process and equal protection clauses.

16

See, e.g., Griffin v. Illinois, 351 U.S. 12, 17-18 (1955) (finding that if an appeal is open

17

to those that can pay for it, an appeal must be provided for an indigent); Douglas v.

18

California, 372 U.S. 353 (1963). However, Rodriguez was denied his right to appellate

19

review.

12

20
21
22

At the change of plea hearing, during the court’s colloquy with Rodriguez the
following exchange took place:

Court:

If the jury were to find you guilty, you could
appeal. Do you understand that?

Rodriguez:

Yes, I do. Can I appeal now that — because of
—if my pleading guilty, is that still
appealable?

23
24
25
26
27

9

App. 0024
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 10 of 16

1

Court:

2
3
4
5
6
7
8
9
10
11
12
13

No. The jury will not hear and decide the
remainder[] of your trial if the Court accepts
your plea of guilty. Do you understand that?

Ex. 19, Tr.9/12/07 at 70 (emphasis added). The trial court was wrong.
The failure to properly advise Rodriguez of his appellate rights denied him his
entire right to an appellate judicial proceeding under Nevada law. As a result, he was
unable to challenge his sentence. See, e.g., Ex. 34, EvidHrg.1/21/14 at 52 (Attorney
Van Ry was shocked that Rodriguez got the maximum sentence). The trial court
thereby denied Rodriguez his right to due process of law under the Fifth and
Fourteenth Amendments to the United States Constitution. The writ should be
granted and Rodriguez should be granted his direct appeal.

B.

Trial counsel denied Rodriguez his constitutional
right to direct appeal when counsel failed to inform
Rodriguez that he had the right to appeal.

14

Statement in Support of Claim: Trial counsel’s duty to the defendant extends

15

to consultation over whether to file an appeal. Roe v. Flores-Ortega, 528 U.S. 470,

16

480 (1984) (“counsel has a constitutionally imposed duty to consult with the

17

defendant about an appeal when there is reason to think either (1) that a rational

18

defendant would want to appeal (for example, because there are nonfrivolous grounds

19

for appeal), or (2) that this particular defendant reasonably demonstrated to counsel

20

that he was interested in appealing.”) At the evidentiary hearing on the post-

21

conviction habeas petition, Rodriguez testified that his trial counsel, Attorney Van

22

Ry, never discussed his right to appeal with him and that he was not aware of his

23

right to appeal. Attorney Van Ry did not contradict this, and did not remember

24

discussing an appeal with Rodriguez. Further, during the change of plea hearing, the

25

District Court erroneously informed Mr. Rodriguez he had no appeal rights.

26

Even the State admitted that this was a viable claim, though it took issue with

27

the prejudice aspect. Finally, the District Court denied this claim on the record at the
10

App. 0025
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 11 of 16

1

evidentiary hearing, despite the fact that it had an incomplete record. The Court

2

explained that the change of plea hearing had not been transcribed, and therefore, it

3

admitted, it was unable to review the hearing prior to making its ruling. It is telling

4

that the Court did not even mention this issue in its written order.

5

It is one of the burdens of trial counsel to inform a convicted client of the right

6

to appeal. That duty includes informing the client of the procedure for filing the

7

appeal as well as the advantages and disadvantages of filing an appeal. Lozada v.

8

State, 871 P.2d 944 (1994). Prejudice has been presumed, for purposes of establishing

9

ineffective assistance of counsel, when counsel fails to inform a criminal defendant of

10

the right to appeal. Lozada, 871 P.2d at 948-949. With regards to the right to appeal

11

from a guilty plea, the Nevada Supreme Court has held that an attorney still has a

12

constitutional duty to advise a defendant of his appeal rights in certain

13

circumstances, including when the defendant has viable appeal issues.

14

The fact that Attorney Van Ry does not even remember going over or

15

explaining Rodriguez’s appellate rights is troubling given, it is one of the burdens of

16

trial counsel to inform a convicted client of the right to appeal. That duty includes

17

informing the client of the procedures for filing the appeal as well as the advantages

18

and disadvantages of filing an appeal. Prejudice has been presumed, for ineffective

19

assistance of counsel, when counsel fails to inform a criminal of the right to appeal.

20

The failure to properly advise Rodriguez of his appellate rights denied him his entire

21

right to an appellate judicial proceeding under Nevada law. The writ should issue

22

and Rodriguez should be granted his direct appeal.

23

///

24

///

25

///

26
27
11

App. 0026
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 12 of 16

1

GROUND TWO

2

Rodriguez was denied his right to the effective assistance
of counsel under the Sixth and Fourteenth Amendments to
the United States Constitution.

3
4
5

The Sixth and Fourteen Amendments guarantee the accused the right to

6

counsel at trial. However, the right to counsel encompasses more than a warm body

7

sitting next to the accused; the right entails the right to effective assistance of

8

counsel. Strickland v. Washington, 466 U.S. 668 (1984). To establish a claim of

9

ineffective assistance of counsel, a petitioner must show: (1) that counsel’s

10

performance was professionally unreasonable; and (2) there “is a reasonable

11

probability that, but for counsel’s unprofessional errors, the result would have been

12

different.” Id. at 694. “A reasonable probability is a probability sufficient to

13

undermine the confidence in the outcome.” Id.

14
15

Applying the Strickland test, Rodriguez can demonstrate he was denied his
Constitutional right to the effective assistance of counsel.

A.

16
17

Trial counsel performed deficiently in failing to
investigate and present mitigation evidence on
Rodriguez’s behalf at sentencing.

18
19

Statement of Exhaustion: This claim was presented to, and decided upon by

20

the Nevada Court of Appeals on appeal of the denial of post-conviction relief. See Exs.

21

42, 47.

22

Statement in Support of Claim: The defense not only has the right, but has

23

the obligation to put on a case in mitigation. Wiggins v. Smith, 539 U.S. 510 (2003).

24

No strategic reason exists in the record for defense counsel’s failure to present a more

25

complete case in mitigation, including mitigation witnesses, such as Sandra Florez,

26

Rodriguez’s sister, who could have testified to his nonviolent character. See, e.g., Ex.

27

34, Tr.1/21/14 at 59-60, 64. Accordingly, defense counsel’s performance at sentencing

12

App. 0027
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 13 of 16

1

was constitutionally inadequate, pursuant to Wiggins. Rodriguez was also prejudiced

2

by this failure, as he received a significantly harsher sentence than he otherwise

3

would have if counsel had properly prepared for the sentencing hearing.

4

Any contrary decision by a state court would be contrary to, or an unreasonable

5

application of, clearly established federal law, and/or would involve an unreasonable

6

determination of facts. See 28 U.S.C. § 2254(d)(1) and (2). The writ should be granted

7

and Rodriguez’s sentence should be vacated.

8

GROUND THREE

9

Rodriguez’s plea was not knowing, voluntary, and
intelligent, and thus is constitutionally invalid.

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

Statement of Exhaustion: This claim was presented to, and decided upon by
the Nevada Court of Appeals on appeal of the denial of post-conviction relief. See Exs.
42, 47.

Statement in Support of Claim: There is no question that a criminal defendant
can pled guilty. See Boykin v. Alabama, 395 U.S. 238 (1969). However, the plea must
be entered into knowingly, voluntarily, and intelligently — with an understanding of
the elements of the offense and the consequences of the plea. Looking at the totality
of the circumstances here, it is clear Rodriguez’s plea was not entered into knowingly,
voluntarily, and intelligently.
Three days into trial, Attorney Van Ry informed Rodriguez that things were
“not looking good” and that he (Rodriguez) was looking at “20 to life plus 20 to life for
the enhancement.” Ex. 34, Tr.1/21/14 at 15, 25, 35; ECF no. 1-01 at 9. Scared,
Rodriguez turned to Attorney Van Ry for advice. See id.; see also Ex. 34, Tr.1/21/14
at 24-25. Attorney Van Ry told Rodriguez that if he pled guilty the State would
dismiss the weapon enhancement; that the worst sentence he could get would be 20
to life; and that the judge could consider a lesser included offense and could sentence

27
13

App. 0028
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 14 of 16

1

Rodriguez to the ten year flat sentence the State originally offered him. See, e.g., Ex.

2

34, Tr.1/21/14 at 16-18, 24, 33, 37; See also ECF no. 1-01 at 8-A, 9.

3

With Attorney Van Ry’s incorrect sentencing information/promise in mind,

4

feeling like Attorney Van Ry had not represented him at trial, and knowing that

5

Attorney Van Ry had done “very little” in preparation for his murder trial — having

6

at best spent two hours with him, and having never gone over the discovery with him

7

— Rodriguez was left with no choice but to enter into an unknowing, involuntary, and

8

unintelligent plea. See, e.g., Ex. 34, Tr.1/21/14 at 8, 10, 19-23, 25-27, 35-36, 46, 49;

9

see also ECF no. 1-01 at 5, 7, 13; ECF no. 10 at 6-8. Any decision by a state court that

10

Rodriguez entered into a knowing, voluntary, and intelligent plea would be contrary

11

to, or an unreasonable application of, clearly established federal law, and/or would

12

involve an unreasonable determination of facts. See 28 U.S.C. § 2254(d)(1) and (2).

13

The writ should be granted and Rodriguez’s conviction and sentence should be

14

vacated.

15

III.

PRAYER FOR RELIEF

16

Accordingly, Petitioner respectfully requests that this Court:

17

1.

Issue a writ of habeas corpus to have Rodriguez brought before the
Court so that he may be discharged from his confinement;

2.

Conduct an evidentiary hearing at which proof may be offered
concerning the allegations in this amended petition and any defenses
that may be raised by respondents’ and

3.

Grant such other and further relief as, in the interests of justice may
be appropriate.

18
19
20
21
22

DATED this 6th day of February, 2017.

23

Respectfully submitted
RENE L. VALLADARES
Federal Public Defender

24
25

/s/ T. Kenneth Lee

26

T. KENNETH LEE
Assistant Federal Public Defender

27
14

App. 0029
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 15 of 16

1

DECLARATION UNDER PENALTY OF PERJURY

2

I declare under penalty of perjury under the laws of the United States of

3

America and the State of Nevada that the facts alleged in this petition are true and

4

correct to the best of counsel's knowledge, information, and belief.

5
6

DATED this 6th day of February, 2017.

7
8

/s/ T. Kenneth Lee

9

T. KENNETH LEE
Assistant Federal Public Defender

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
15

App. 0030
Case 3:15-cv-00339-MMD-WGC Document 23 Filed 02/06/17 Page 16 of 16

1

CERTIFICATE OF SERVICE

2

In accordance with the Rules of Civil Procedure, the undersigned hereby

3

certifies that on this 6th day of February, 2017, a true and correct copy of the

4

foregoing, was filed electronically with the United States District Court. Electronic

5

service of the foregoing document shall be made in accordance with the master service

6

list as follows:

7

Matthew S. Johnson
Deputy Attorney General
100 North Carson Street
Carson City, NV 89701
MJohnson@ag.nv.gov

8
9
10
11

/s/ Dayron Rodriguez

12

An Employee of the
Federal Public Defender,
District of Nevada

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
16

App. 0031
Case 3:15-cv-00339-MMD-WGC Document 26-5 Filed 02/06/17 Page 2 of 4

App. 0032
Case 3:15-cv-00339-MMD-WGC Document 26-5 Filed 02/06/17 Page 3 of 4

App. 0033
Case 3:15-cv-00339-MMD-WGC Document 26-5 Filed 02/06/17 Page 4 of 4

App. 0034
Case 3:15-cv-00339-MMD-WGC Document 25-3 Filed 02/06/17 Page 2 of 3

App. 0035
Case 3:15-cv-00339-MMD-WGC Document 25-3 Filed 02/06/17 Page 3 of 3

